No.

IN THE SUPREME COURT OF THE UNITED STATES
DAVID A. BRIDGEWATER,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I, Angela J. Hill, counsel for petitioner, certify on this 24th day of September
2021, I caused three copies of this Petition for a Writ of Certiorari to be served by
mail and electronic means on the following:

Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW

Room 5614
Washington, DC 20530-00001

/s/

ANGELAS. H?
Counsel of Record

Office of the Federal
Public Defender
Southern District of

Illinois
401 West Main Street
Benton, Illinois 62812

(618) 435-2552
angela_hill@fd.org

Counsel for Petitioner

